 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                          National
Telecommunications and Information
                    Administration

                  Florida Public Safety
         Interoperable Communications
     Grant Award No. 2007-GS-H7-0019

                  Final Audit Report No. DEN-19886
                                 September 24, 2010




                    For Public Release




                    Denver Regional Office of Audits
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




September 24, 2010


MEMORANDUM FOR:                 Lawrence E. Strickling
                                Assistant Secretary for
                                 Communications and Lnfonnation
                                National Telecommunications and
                                 Infannation Administration




FROM:	                          Ann C. Eilers    ~    MNL     Q    £1t'fS
                                Principal Assistant Inspector General for
                                Audit and Evaluation


SUBJECT:	                       Final Audit Report No. DEN-19886
                                Auditcc: Florida Division of
                                Emergency Management
                                PSIC Award No. 2007-GS-H7-0019


Attached is a copy of our final audit report of the Florida Public Safety Interoperable
Communications (PSIC) award for your action in accordance with Department Administrative
Order (DAO) 213-5, Audit Resoillfioll and Follow-lip. Our original audit report has been sent to
the recipient, who has until October 25, 20 J 0, to submit comments and supporting
documentation to you. A copy of our final audit report will be posted on OIG's website pursuant
to section 8L of the Inspector General Aet of 1978, as amended.

Under DAO 213-5, you have 60 calendar days from the date of this memorandum to reach a
decision on the actions you propose to take on the audit finding and recommendation and to
submit an audit resolution proposal to this office. The format for the proposal is shown in Exhibit
8 of the DAO. As applicable, your written proposal must include the rational and/or legal basis
for reinstating any questioned costs in the report and should reference any supporting
documentation you relicd on. Your comments should also address the funds to be put to better
usc, ifany, cited in the report. Under the DAO, the Office of Inspector General must concur with
your proposal before it may be issued as a final determination and implemented. The DAO
prescribes procedures for handling any disagreements this office may have with the Audit
Resolution Proposal. Also, please copy us when the audit determination letter is sent to the
auditcc.
Please direct any questions regarding this report to Jerry McMahan, Assistant Regional Inspector
General, at (404) 730-2065 and refer to the final audit report number listed above in any related
correspondence.

Attachment


cc: 	   Milton Brown, NTIA Audit Liaison
        Kathy Smith, NTIA Chief Counsel
        Laura Pettus, PSIC Program Manager
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




September 24, 2010

Mr. David Halstead
Director
Florida Division of Emergency Management
2555 Shumard Oak Boulevard
Tallahassee, FL 32399-2100

Dear Mr. Halstead:

Attached is a copy of final audit report number DEN-19886 concerning the Public Safety
[nteroperable Communications (PSIC) grant your agency received from the National
Telecommunications and Infonnution Administration (award number 2007-GS-H7-00l9).

This letter is notice of your opportunity to review the report and develop a complete response
that addresses each audit finding and recommendation. If you believe the report is incorrect, or if
you disagree with any findings or recommendations, it is important that you explain the error or
your reasons for disagreement and either submit evidence to the Department supporting your
contentions or reference any such evidence submitted previously. You also should explain how
each documentary submission supports your position; othef\vise, we may be unable to assess the
infonnation.

Your response must be postmarked no later than October 25, 20 I o. There will be no extensions
to this deadline, and you will have no other opportunity to submit comments, arguments, or
documentation before the Department makes a decision on the audit findings and
recommendations. The Department will cOllsider your complete response in determining what
actions to take with respect to our audit. Enclosure I explains administrative dispute procedures
available to you.

As you prepare your response, if you have any questions about this report or the process by
which the Department reaches a final decision, please call Jerry McMahan, Assistant
Regional Inspector General, at (404) 730-2065 and refer to final audit report number DEN­
19886.

Please send your response (including documentary evidence) to

Lawrence E. Strickling
Assistant Secretary for Communications and Infonnation
National Telecommunications and Infonnation Administration
U.S. Department of Commerce
140 I Constitution Avenue, N. W.
Washington, D.C. 20230
Please send a copy of your response letter only to

Ms. Elizabeth M. Hannan
Assistant Administrator
Grant Programs Directorate
Federal Emergency Management Agency
500 C Street, SW
WashinglOn, DC 20472-3635

Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation
U.S. Department of Commerce
1401 Constitution Avenue, N.W., Room 78868
Washington, DC 20230

Jerry McMahan, Assistant Regional Inspector General
United States Department of Commerce
Office of Inspector General
Atlanta Regional Office of Audits
401 W. Peachtree Street, N.W., Suite 2742
Atlanta, GA 30308

After evaluation of your response, the audit action official may provide you with further
guidance or request clarification. Our final report, along with your response, will be posted on
OIG's Web site pursuant to section 8L orthc Inspector General Act of 1978, as amended.

Sincerely,


J~ ~ Ble6
Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation


Enclosures

cc (\VIa encl.):	 Laura M. Pettus, NTIA PSIC Program Manager
                  Carolyn P. Dunn, DHS/FEMA Grant Programs Dircctorate
                  Lisa Nonnan, State of Florida Auditor General
                                                                                        Enclosure 1
                                                                                        Page 1 of 2



                                    NOTICE TO AUDITEES

                                   Financial Assistance Audits



1. 	 Audit requirements applicable to a particular financial assistance award may be established
     by law, regulation, policy, or the terms of the recipient's financial assistance agreement with
     the Department of Commerce.

2. 	 Audit results will be reported to the bureau or office administering the financial assistance
     award and to you (the recipient/auditee), unless the Department’s inspector general
     determines it is in the government's interest to withhold the audit report.

3. 	 Audit results may lead to adverse consequences for you, including the following actions
     (which are subject to applicable laws and regulations):

     o	 suspension and/or termination of current awards;

     o	 referral of identified problems to other federal funding agencies and entities as deemed
        necessary for remedial action;

     o	 denial of eligibility for future awards;

     o	 cancellation of authorization for advance payment and substitution of reimbursement
        by check;

     o	 establishment of special conditions in current or future awards; and,

     o	 disallowance of costs, which could result in a reduction in the amount of federal
        payments, withholding of payments, offset of amounts due the government
        against amounts due you, or establishment of a debt and appropriate debt
        collection follow-up (including referrals to collection agencies).

     Because of these and other possible consequences, it is important that you take your
     responsibility to respond to audit findings seriously by providing explanations and evidence
     to support your position with respect to the disputed results.
                                                                                        Enclosure 1
                                                                                        Page 2 of 2


4. 	   You have the following opportunities to point out errors (of fact or law) that you believe
       were made in the audit, to explain other disagreements with audit findings and
       recommendations, to present evidence that supports your positions, and to dispute final
       determinations:

       o	 At any time during the audit, you may bring to the attention of the auditors 

          evidence you believe affects the auditors' work. 


       o	 At the completion of the audit on-site, as a matter of courtesy, you will usually be
          given the opportunity to discuss (during an exit conference) the preliminary audit
          findings and to present a clear statement of your position on the significant
          preliminary findings, including possible cost disallowances.

       o	 When the draft audit report is issued, you will have the opportunity to comment
          and to submit evidence during the 30 days after we transmit the report to you.
          (We will not extend this deadline.)

       o	 When the final audit report is issued, you will have the opportunity to comment
          and to present evidence during the 30 days after we transmit the report to you.
          (We will not extend this deadline.)

       o	 When the Department issues its decision (the "Audit Resolution Determination") on
          the audit report's findings and recommendations, you have the right to appeal for
          reconsideration within 30 calendar days after receiving the Determination Letter if
          monies are due the government. (We will not extend this deadline.) The
          Determination Letter will explain the specific appeal procedures.

       o	 Once you file an appeal or the appeal period has expired, the Department will not
          accept any further submissions concerning your dispute of its decisions. If it is
          determined that you owe money or property to the Department, the Department will
          take appropriate collection action but will not thereafter reconsider the merits of the
          debt.

       There are no other administrative appeals available in the Department.
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230



September 24, 20 I0

Ms. Elizabeth M. Hannan
Assistant Administrator
Grant Programs Directorate
Federal Emergency Management Agency
500 C Street, SW
Washington, DC 20472-3635

Dear Ms. Hannan:

Attached is a copy OUf final audit report (DEN~ 19886) regarding Public Safety Interoperable
Communications (PSIC) grant awarded to the Florida Division of Emergency Management
(award number 2007-GS-H7-0019) by the National Telecommunications and Infannalion
Administration (NTIA).

Our original audit report has been sent to the recipient, who has until October 25, 2010, to submit
comments and supporting documentation to the Department ofCornmcrce. NTIA will conduct
the audit resolution and follow up in accordance with Department Administrative Order (DAO)
213-5. A copy of the report will be posted on the Department of Commerce Office of Inspector
General website pursuant to section 8L of the Inspector General Act of 1978, as amended.

If you have any questions regarding this report, please call Jerry McMahan, Assistant Regional
Inspector General, at (404) 730-2065, and rerer to the final audit report number above in any
related correspondence.

Sincerely,



Ann C. Eilers
Principal Assistant Inspector General ror
Audit and Evaluation

Enclosure

cc: Richard L. Skinner, DJ-IS Inspector General
    Carolyn Dunn, DHS/FEMA Grant Programs Directorate
    Bradley A. Shefka, DJ-IS Audit Liaison
    Penny McConnack, FEMA Audit Liaison
    Gina Norton, FEMA Audit Liaison
    Mildred Lloyd, DHS/FEMA Grant Programs Directorate Audit Liaison
    Mike Siviy, DHS OIG Grants Management
                                    Report In Brief
                                                U.S. Department of Commerce Office of Inspector General
                                                                   September 23, 2010



Why We Did this Review                   National Telecommunications and Information Administration
On September 30, 2007, the National
Telecommunications and Informa-
tion Administration (NTIA) award-
                                         Florida Public Safety Interoperable Communications
ed a $42,888,266 Public Safety           Grant PSIC Award No. 2007-GS-H7-0019 (DEN-19886)
Interoperable Communications
(PSIC) grant to Florida to enhance
interoperable emergency communi-         What We Found
cations. NTIA required a minimum
20 percent matching share from
nonfederal sources for the acquisi-
                                   Our audit covered the award period of October 1, 2007, through December 31, 2009,
tion and deployment of communica-  during which time the Florida Division of Emergency Management (FDEM) claimed
tions equipment, and management    total costs of $16,884,937. In general, FDEM appears to be on track to complete its
and administration costs.          nine investments before the end of the award, and has reallocated $750,000 to a differ-
                                   ent PSIC investment than originally budgeted, thus putting these funds to better use.
The original award period ran from
October 1, 2007, to September      However, we did discover some areas of concern:
30, 2010. In November 2009, the          •   We questioned over $219,000 of matching share costs claimed. FDEM agreed with
President signed an act extending
                                             our finding and corrected its financial report to reflect the proper amount.
the award period to September 30,
2011.
                                         •   While FDEM generally complied with the terms and conditions of the PSIC grant,
FDEM was designated as the ad-               it did not fully comply with cash drawdown requirements. FDEM also claimed
ministrative agency to apply for and         funds for unallowable management and administration costs on behalf of itself and
administer PSIC funds. We audited            its subrecipients. Finally, FDEM made several errors when drawing down PSIC
costs claimed by FDEM to deter-              funds for its subrecipients.
mine whether the recipient complied
with NTIA PSIC grant guidelines
and the Department of Homeland
Security’s (DHS) award terms and
conditions.                              What We Recommended

Background                               In our draft report, we made several recommendations to the NTIA Assistant Secretary
The Digital Television Transition        for Communications and Information and the Federal Emergency Management Agen-
and Public Safety Act of 2005            cy’s Grant Programs Directorate:
authorized NTIA, in consulta-
tion with the DHS, to implement          1. Require FDEM to monitor cash drawdowns to ensure compliance with PSIC guide-
the PSIC program—a $1 billion               lines, place funds drawn in an interest-bearing account, and return over $15,000 in
one-time, formula-based matching
                                            interest owed to the federal government.
grant program intended to enable
public safety agencies to establish
interoperable emergency commu-
                                         2. Direct FDEM to reduce its total PSIC cost claim to remove the unallowable man-
nications systems using reallocated         agement and administration costs.
radio spectrum.
                                         3. Direct FDEM to provide evidence that it has addressed the deficiencies in its sys-
The Implementing Recommenda-                tems that allowed the improper drawdowns to occur.
tions of the 9/11 Commission Act
of 2007 requires the Commerce In-        In response, FDEM has (1) issued a policy requiring that subgrantees provide invoices
spector General to conduct financial     before receiving cash advances, and made plans to remit the interest owed to the
audits, over 4 years, of a representa-
tive sample of at least 25 states or
                                         government; (2) reduced its cost claim by removing over $48,000 in unallowable costs
territories receiving PSIC grants.       from a subsequent PSIC claim; and (3) implemented new controls to improve monitor-
                                         ing and prevent further improper drawdowns.
U.S. Department of Commerce                                                                                       Final Report DEN-19886 

Office of Inspector General                                                                                             September 24, 2010



                                                                 CONTENTS


Introduction......................................................................................................................................1 

Findings and Recommendations ......................................................................................................3 

   I.  Investment Justification's Individual Investments Are on Schedule ....................................3
 
   II.  FDEM Matching Share .........................................................................................................3
 
   III.  FDEM Generally Complied with Terms and Conditions .....................................................4 

       A.  FDEM Did Not Comply with Cash Drawdown Requirements .......................................4
 
       B.  Unallowable FDEM Management and Administration Costs .........................................6
 
       C.  Unallowable Subrecipient Management and Administration Costs ................................6
 
       D.  FDEM Drew Funds in Error ............................................................................................6 

       E.  FDEM Received Approval for Budget Modification ......................................................7 

   IV.  Follow-Up on Prior Audit Recommendations ......................................................................7 

Summary Results of Financial Audit ...............................................................................................8 

Appendix A: Objectives, Scope, and Methodology.........................................................................9
 
Appendix B: Summary of Source and Application of Funds ........................................................11 

Appendix C: Summary of Financial/Compliance Audit ................................................................12 

Appendix D: Recipient Response ..................................................................................................14 

U.S. Department of Commerce                                                               Final Report DEN-19886 

Office of Inspector General                                                                     September 24, 2010



                                                 Introduction


On September 30, 2007, the National
Telecommunications and Information                              Public Safety Interoperable
Administration (NTIA) awarded a Public                          Communications Program
Safety Interoperable Communications (PSIC)
grant to the state of Florida to enhance                   The Digital Television Transition and Public
interoperable emergency communications.                    Safety Act of 2005 authorized NTIA, in
The grant provided federal funding of                      consultation with the Department of
                                                           Homeland Security (DHS), to implement the
$42,888,266, of which $41,471,666 required
                                                           PSIC program—a $1 billion one-time,
nonfederal matching contributions. Federal                 formula-based matching grant program
funds provided for acquisition and                         intended to enable public safety agencies to
deployment of communications equipment,                    establish interoperable emergency
and management and administration costs                    communications systems using reallocated
must be matched by nonfederal contributions                radio spectrum.
of at least 20 percent of the total cost of those
activities. Statewide planning, coordination,              NTIA signed a memorandum of
and training costs do not require matching                 understanding with DHS, under which DHS
share. The $41,471,666 provided for                        oversees and administers the PSIC
acquisition and deployment and management                  program.
and administration represents 80 percent of
                                                           The Implementing Recommendations of the
the total cost of those activities, leaving a              9/11 Commission Act of 2007 requires the
minimum nonfederal matching share                          Commerce Inspector General to conduct
requirement of $10,367,917. The award                      financial audits, over 4 years, of a
period runs from October 1, 2007, to                       representative sample of at least 25 states
September 30, 2011.                                        or territories receiving PSIC grants. The
                                                           Florida grant program is the fourth largest of
On November 6, 2009, the President signed                  the 56 states and territories receiving
Public Law 111-96, which extended the PSIC                 awards.
program beyond its original expiration date of
September 30, 2010. The new law extended the performance period of all PSIC grants through
September 30, 2011, and allowed for additional extensions, through September 2012, on a case-
by-case basis, if approved by the Assistant Secretary for Communications and Information.

The governor of Florida designated the Florida Division of Emergency Management (FDEM) as
Florida’s state administrative agency to apply for and administer PSIC funds.1 FDEM prepared
an investment justification based on NTIA’s PSIC Investment Justification Reference Guide
(dated September 2007), which detailed individual communications projects intended to achieve
meaningful and measurable improvements in interoperability, and fill gaps identified in the
statewide communications interoperability plan. The investment justification had a total of nine
investments (table 1) and was approved by NTIA on June 25, 2008.
1
  The PSIC program requires the governor of each state and territory to designate a state administrative agency to
apply for and administer PSIC funds. Administrative agencies are required to pass through no less than 80 percent of
the total award amount to local or tribal governments or authorized nongovernmental public safety agencies, unless
the local entity opts, via written agreement, to have the state agency retain and spend the funds on its behalf.


                                                    1                                                      

U.S. Department of Commerce                                                   Final Report DEN-19886 

Office of Inspector General                                                         September 24, 2010




                     Table 1: Investment Justification and Funding
                                                      PSIC Funds        Nonfederal
                   PSIC Investment                                                          Total ($)
                                                      Awarded ($)        Match ($)
1. Okaloosa County Public Safety Responders             2,325,037         581,259         2,906,296
Interoperable Initiative
2. North Florida Domestic Security Task Force            3,850,000         962,500        4,812,500
3. Framework To Enhance Interoperability                 4,906,915       1,226,729        6,133,644
Throughout Regional Domestic Security Task
Force, and Establish Connectivity With
Adjacent Regions
4. West Central Florida 700 MHz Overlay and              6,951,290       1,737,823        8,689,113
P25 Technology Migration for Multiregional
Interoperability
5. Cross-Regional 700 MHz P25                            4,166,813       1,041,703        5,208,516
Multijurisdictional Shared Public Safety Mutual
Aid Interoperable Communications Systems
6. Southwest Florida Domestic Security Task              8,375,558       1,967,190       10,342,748
Force Regional Interoperable Communications
Improvement Project
7. South Florida Interoperable 700 and 800               3,735,000         933,750        4,668,750
MHz Radio Data and Voice Enhancements
8. Florida State Agencies Interoperable                  6,550,453       1,410,163        7,960,616
Communications Networks Enhancements
9. Florida State Law Enforcement Radio                     827,200         218,050        1,045,250
System Mobile Trunking System Upgrades and
System Expansion (STR)
Management and Administration                           1,200,000          300,000        1,500,000
Total                                                  42,888,266       10,379,167       53,267,433
Source: FDEM Investment Justification

States were required to include a prescribed strategic technology reserve in their justifications.
The strategic reserve is designed to pre-position, or secure in advance, interoperable
communications equipment for immediate deployment in an emergency situation or major
disaster. Florida’s prescribed strategic reserve amount was $3,321,633; however, the state
received a partial waiver in the amount of $2,494,433, leaving $827,200 as Florida’s strategic
technology reserve in investment 9.




                                              2                                              

U.S. Department of Commerce                                                     Final Report DEN-19886 

Office of Inspector General                                                           September 24, 2010



                               Findings and Recommendations

In January 2010, we initiated an audit of costs claimed by FDEM to determine whether it had
complied with NTIA PSIC grant guidelines and DHS award terms and conditions. The audit
covered the award period of October 1, 2007, through December 31, 2009, during which time the
recipient claimed total costs of $16,884,937. As stated in appendix A, the objective of our audit
was to determine whether FDEM was using its grant funds in accordance with federal
requirements. In particular, we assessed whether FDEM (1) is on track to complete its
interoperable communications investments by September 30, 2011; (2) met the minimum
20 percent match for acquiring and deploying interoperable communications equipment as well
as management and administrative costs; (3) claimed reasonable, allowable, and allocable costs
under the award; and (4) complied with grant terms and conditions. The following sections detail
our findings with respect to each audit objective.

I.   Investment Justification's Individual Investments Are on Schedule

FDEM asserts that all nine investments are on schedule to be completed by September 30, 2011.
Our audit found nothing to indicate that any of the investments would not be completed before
the end of the grant.

II. FDEM Matching Share

FDEM is required to have a 20 percent matching share in place from nonfederal sources
($10,367,917) for acquisition and deployment of communications equipment, as well as
management and administration costs. The match is required by the Digital Television Transition
and Public Safety Act of 2005, Public Law 109-171, Section 3006, the PSIC Grant Program
Guidance and Application Kit, and the special award conditions. The match can be identified and
allocated at either the investment level or at the total PSIC (i.e., overall funding) level; therefore,
individual investments can be undermatched or overmatched according to the needs of the
grantee. FDEM’s grant includes budgeted matching share of $10,379,167, while the budgeted
matching shares of the subrecipients total $10,562,328. Either amount is sufficient to cover the
required matching share minimum of $10,367,917.

NTIA’s PSIC Grant Program Guidance and Application Kit, Section VI (B), requires the match
be expended at the same rate as the federal share. As of December 31, 2009, FDEM claimed
$3,858,478 of matching share, which is well above 20 percent of total costs claimed. A summary
of source and application of funds is provided in appendix B.

In our draft report, we questioned $219,638 of the matching costs claimed. FDEM asserted that
this amount had been expended by two subrecipients; however, when we verified the total match
claimed we discovered these costs had not yet been incurred. When we conveyed this
information to FDEM, officials agreed with our finding and corrected the June 30, 2010,
financial report to reflect the correct matching share contribution.




                                              3                                                

U.S. Department of Commerce                                                                Final Report DEN-19886 

Office of Inspector General                                                                      September 24, 2010



III. FDEM Generally Complied with Terms and Conditions

We found that FDEM was generally in compliance with PSIC grant terms and conditions;
however, we did note some exceptions in the areas of cash drawdowns, management and
administration costs, and controls over application of expenditures to proper funding agreements.
We also noted that FDEM requested and received approval to reprogram a portion of its PSIC
funding to complete required planning activities.

A. FDEM Did Not Comply with Cash Drawdown Requirements

FDEM is not in compliance with PSIC program guidelines concerning drawdown and
expenditures of funds. Our review of PSIC funds drawn and payments made to subrecipients
from October 1, 2007, through December 31, 2009, identified six advance payments that were in
violation.

The PSIC Grant Program Guidance and Application Kit, Section VI, Part B, Page 31, states that
grantees should draw down PSIC funds as close to expenditure as possible, up to 30 days prior to
expenditure/reimbursement. Advances received by grantees must be placed in an interest-bearing
account and interest earned on advances remitted to the federal government.

FDEM’s current contracting policies and procedures allow subrecipients to request PSIC funds
up to 90 days prior to the planned expenditure, as long as they can justify the need for advanced
funds. FDEM mistakenly followed guidelines established in January 2006 by the U.S.
Department of Homeland Security rather than appropriate PSIC guidelines. While the Homeland
Security guidelines allow drawdowns up to 120 days in advance of actual expenditure, PSIC
guidelines require disbursement within 30 days.

FDEM and its subrecipients are not in compliance with PSIC’s 30-day disbursement requirement
for advanced funds and FDEM has failed to remit interest earned on advances to the federal
government. We determined that as of December 31, 2009,

    •	 $9,333,084 out of $13,026,459 total federal funds drawn was not in compliance with the
       30-day disbursement requirement; and
    •	 Interest due on advances totaled $15,552.2 (See table 2.)




2
  Pursuant to Title 31 of the Code of Federal Regulations, § 205.19(b), interest on advances of funds not placed in
interest-bearing accounts is due the government, based on the average of the U.S. Treasury Department’s 13-week
Treasury Bill rate during the state’s fiscal year.


                                                     4                                                      

U.S. Department of Commerce                                                                          Final Report DEN-19886 

Office of Inspector General                                                                                September 24, 2010



                                              Table 2: Interest Due

                                                                                  No. of             Interest
                                                                                   Days             Rate for
                                                            Drawdown             Interest         the Period           Interest
             Time Period                                    Amount($)           Incurred                  (%)           Due($)
March 12, 2009–December 28, 2009                             2,000,000                 n/a                n/a            9,982*
March 30, 2009–May 28, 2009                                      280,560             58/360              1.068                483
May 29, 2009–June 1, 2009                                         68,273              2/360              1.068                  4
June 2, 2009–June 9, 2009                                         53,158              7/360              1.068                 11
June 10, 2009–June 23, 2009                                      677,158             13/360              1.068                261
June 24, 2009–June 30, 2009                                    1,169,950              6/360              1.068                208
July 1, 2009–July 28, 2009                                     1,169,950             27/360              0.321                282
July 29, 2009–September 4, 2009                                4,977,158             35/360              0.321               1,553
September 5, 2009–November 3, 2009                             4,353,158             58/360              0.321           2,251
November 20, 2009–December 31, 2009                            1,688,890             41/360              0.321             617
Total                                                                                                                   15,652
Less: Retained Interest**                                                                                                  100
Interest Owed by FDEM                                                                                                  $15,552
* Subrecipient put advance payment in an interest- bearing account and earned $9,982, which has not been returned to the 

government. Interest due the government totals $15,552, of which $5,570 is imputed. 

** Recipients can retain up to $100 of interest earned to cover administrative expenses. 



Recommendations

We recommend that the NTIA Assistant Secretary for Communications and Information, in
conjunction with the FEMA Grant Programs Directorate, require FDEM to (1) monitor cash
drawdowns to ensure compliance with PSIC guidelines, (2) place funds drawn in an interest-
bearing account, and (3) return interest due of $15,552 to the federal government.

FDEM Response

FDEM has issued a modified cash advance policy effective July 1, 2010, requiring that invoices
be provided in order for a subgrantee to receive a cash advance. FDEM stated that it has received
$10,289 of the interest due and that it intends to remit the full $15,552.

OIG Comments

We concur with FDEM’s stated corrective actions.

Funds to Be Put to Better Use

The return of interest due on advances of PSIC funds will permit $15,552 to be put to better use.



                                                           5                                                            

U.S. Department of Commerce                                                  Final Report DEN-19886 

Office of Inspector General                                                        September 24, 2010



B. Unallowable FDEM Management and Administration Costs

FDEM claimed $48,436 of unallowable management and administration costs, including indirect
charges ($37,230), IT equipment ($3,749), and expenses ($7,457).

NTIA’s PSIC Program Guidance and Application Kit, Section VII, Part A, prohibits the use of
office expenses, equipment, and indirect charges. NTIA’s PSIC Grant Program Allowable Cost
Matrix lists office expenses such as phones, vehicle costs, office rental, furniture and equipment,
office supplies, and indirect charges as unallowable costs. Furthermore, PSIC Grant Program
Frequently Asked Questions state that indirect costs are unallowable.

Following our draft audit report, FDEM removed $48,436 of unallowable management and
administration costs from a subsequent PSIC cost claim.

C. Unallowable Subrecipient Management and Administration Costs

NTIA’s PSIC Program Guidance and Application Kit, Section VII, Part D, states that
management and administration costs associated with acquisition, deployment, and training are
eligible for federal reimbursement at the state level for up to 3 percent of the total approved PSIC
funding. In addition to FDEM’s management and administration costs mentioned above, we
found that one subrecipient had claimed and received federal reimbursement for $22,015 in
management and administration costs. Because these costs were incurred at the subrecipient
level, they are ineligible for reimbursement with PSIC funds.

We brought this finding to the attention of FDEM officials during our fieldwork. FDEM agreed
with our finding and subsequently requested and received reimbursement from the subrecipient
for $22,015. In addition, FDEM notified all subrecipients in writing that PSIC subrecipients are
not allowed to request reimbursements for management and administration costs.

D. FDEM Drew Funds in Error

On five occasions, FDEM payments to a subrecipient were drawn from a non-PSIC grant. In
another instance, FDEM drew PSIC funds to pay another grant’s expenses. The cumulative total
of these transactions was more than $1.5 million. When we brought these items to the attention
of FDEM officials they corrected the errors.

Title 15 of the Code of Federal Regulations, § 24.20(b)(3), states that effective control and
accountability must be maintained for all grant and subgrant cash, real and personal property,
and other assets. Grantees and subgrantees must adequately safeguard all such property and must
assure that it is used solely for authorized purposes.

FDEM uses different groups to execute the grant, record financial data, and draw down PSIC
funds. The groups do not effectively communicate with one another to ensure complete and
accurate records. At the time of our fieldwork, FDEM did not have procedures in place to
reconcile payment requests with disbursement records.



                                             6                                              

U.S. Department of Commerce                                                 Final Report DEN-19886 

Office of Inspector General                                                       September 24, 2010



Subsequent to our draft audit report, FDEM added (1) a grant manager to provide increased
review of grant financial agreements and reimbursements; (2) a reporting tool, including training,
to reconcile payments and verify that the appropriate funding source was charged; and (3) a
monthly review, which will allow for verification that payments were made correctly. FDEM’s
complete response to our draft report is included as appendix D.

E. FDEM Received Approval for Budget Modification

FDEM requested and received approval to modify its budget. FDEM moved $750,000 from the
statewide planning budget category to investment 8’s planning and coordination category.
During our fieldwork we informed FDEM officials that the $750,000 they had budgeted for
statewide planning could not be spent after December 3, 2007, based on NTIA’s PSIC Program
Guidance and Application Kit.

NTIA allowed FDEM to modify its budget to reprogram the $750,000 to complete tactical
interoperable communications plans in regions without existing plans and to be in compliance
with Florida’s Statewide Plan and National Emergency Communications Plan guidance.

Funds to Be Put to Better Use

By bringing this information to FDEM’s attention, FDEM requested and received approval to
modify its budget, which will permit $750,000 of PSIC funds to be put to better use.

IV. Follow-Up on Prior Audit Recommendations

We met with the state of Florida audit coordinator to discuss our audit of the PSIC grant. We
reviewed the state’s OMB Circular No. A-133 audit report for the year ended June 30, 2009.
Although the PSIC program was not part of the audit, we reviewed the report for issues that
could have a direct and material effect on the program and identified five areas of concern. In
two of the five areas of concern—advances of federal funds and erroneous drawdowns—we
identified issues involving the PSIC program, as discussed in previous sections of this report.
The remaining three areas of concern from the A-133 audit report—inadequate documentation of
costs claimed, subrecipient monitoring, and duplicate payments—did not present similar issues
under the PSIC program.




                                            7                                              

U.S. Department of Commerce                                                Final Report DEN-19886 

Office of Inspector General                                                      September 24, 2010



                              Summary Results of Financial Audit

The results of our interim cost audit for the period of October 1, 2007, through December 31,
2009, (detailed in appendix C) are summarized as follows:

Costs Claimed                                                        $16,884,937
Less: Questioned Costs                                                   290,089
Costs Accepted                                                       $16,594,848

Accepted Costs Not Subject to Match                                   $        -0-
Accepted Costs Subject to Match                 $16,594,848
Federal Share Ratio                                    x 80%          13,275,878
Federal Funds Earned                                                 $13,275,878
Federal Funds Disbursed                                               13,026,459
Excess Disbursements Due the Government                              $        -0-

Interest Due the Government                                          $     15,552




                                            8                                             

U.S. Department of Commerce                                               Final Report DEN-19886 

Office of Inspector General                                                     September 24, 2010



                    Appendix A: Objectives, Scope, and Methodology

The objective of our audit was to determine whether FDEM was in compliance with PSIC grant
guidelines and federal requirements. In particular, we assessed whether FDEM (1) was on track
to complete its interoperable communications investments by September 30, 2011; (2) met the
minimum 20 percent match for acquiring and deploying interoperable communications
equipment, and management and administration costs; (3) claimed reasonable, allowable, and
allocable costs under the award; and (4) complied with grant terms and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through December 31, 2009. We conducted our fieldwork January through March 2010, at
FDEM in Tallahassee, and at various subrecipient sites throughout the state of Florida.

To meet our objectives, we did the following:

   •	 reviewed investment documentation and discussed each investment with agency officials;
   •	 analyzed source documents related to the minimum 20 percent match for acquiring and
      deploying interoperable communications equipment and for management and
      administration of the grant;
   •	 traced costs claimed to source documentation;
   •	 interviewed FDEM officials, including the Florida deputy legislative auditor, and
      reviewed the state’s OMB Circular No. A-133 audit report for the year ending June 30,
      2009; and
   •	 reviewed pertinent laws, regulations, and guidance (listed below) to test FDEM's

      compliance. 


We evaluated FDEM’s compliance with federal laws and regulations applicable to the PSIC
grant, including the following:

   •	 Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
      Law 109-171
   •	 Call Home Act of 2006, Public Law 109-459
   •	 Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
      53
   •	 Public Safety Interoperable Communications Grants, Public Law 111-96
   •	 15 CFR, Part 24, Uniform Administrative Requirements for Grants and Agreements to
      State and Local Governments
   •	 PSIC Grant Program Guidance and Application Kit, August 16, 2007
   •	 NTIA PSIC Grant Program Allowable Cost Matrix
   •	 NTIA PSIC Grant Program Frequently Asked Questions
   •	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •	 OMB Circular A-133, Compliance Supplement, CFDA 11.555
   •	 Special Award Conditions
   •	 Department of Commerce Financial Assistance Standard Terms and Conditions
   •	 DHS, Office of Grant Operations, Financial Management Guide


                                           9                                             

U.S. Department of Commerce                                                Final Report DEN-19886 

Office of Inspector General                                                      September 24, 2010



We verified the validity and reliability of computer-processed data supplied by FDEM by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.

We performed steps to obtain an understanding of the management controls of FDEM and its
subrecipients. These steps included interviews with FDEM and subrecipient officials,
examination of policies and procedures, written assertions of FDEM officials, and an
examination of FDEM’s most recent single audit report.

We did not rely on the accounting firm’s internal control reviews but instead determined that we
could better meet our audit objectives through testing of PSIC transactions. We analyzed
nonstatistical samples of FDEM and subrecipient transactions, generally focusing on the highest
dollar value transactions and line items. Since we did not attempt to extrapolate findings from
sample analyses to all transactions, we believe our sampling methodology represented a
reasonable basis for the conclusions and recommendations included in our report. Our report
contains recommendations to address FDEM’s reporting of matching share, cash drawdowns,
unallowable management and administration costs, and funds drawn in error.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under authority of the Implementing Recommendations of the 9/11
Commission Act of 2007, the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, August 31, 2006.




                                           10                                             

U.S. Department of Commerce                                            Final Report DEN-19886 

Office of Inspector General                                                  September 24, 2010



               Appendix B: Summary of Source and Application of Funds

                FLORIDA DIVISION OF EMERGENCY MANAGEMENT

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                          GRANT NO. 2007-GS-H7-0019 

                  OCTOBER 1, 2007, THROUGH DECEMBER 31, 2009 



                                     Approved                    Receipts &
                                      Budget                      Expenses
                                       (a)                          (b)

SOURCE OF FUNDS:


Federal                              $42,888,266                  $13,026,459
Nonfederal                            10,379,167                    3,858,478


Total                                $53,267,433                  $16,884,937


APPLICATION OF FUNDS:

Investment 1                           $2,906,296                  $1,644,166
Investment 2                            4,812,500                   1,635,732
Investment 3                            6,133,644                   1,587,238
Investment 4                            8,689,113                   7,973,894
Investment 5                            5,208,516                   1,375,172
Investment 6                           10,342,748                           0
Investment 7                            4,668,750                   2,500,000
Investment 8                            7,960,616                           0
Investment 9                            1,045,250                           0
M&A Costs                               1,500,000                     168,735

Total                                $53,267,433                  $16,884,937


Notes:
   a) Approved budgeted costs are for the period from October 1, 2007, through September 30,
       2011, based on Florida’s approved budget modification.

   b) Receipts and expenses are for the period from October 1, 2007, through December 31,
      2009.




                                         11                                           

U.S. Department of Commerce                                               Final Report DEN-19886 

Office of Inspector General                                                     September 24, 2010



                 Appendix C: Summary of Financial/Compliance Audit

                FLORIDA DIVISION OF EMERGENCY MANAGEMENT

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                          GRANT NO. 2007-GS-H7-0019 

                  OCTOBER 1, 2007, THROUGH DECEMBER 31, 2009 



                                                                    Results of Audit
                         Approved                Costs            Costs              Costs
Description               Budget                Claimed         Questioned        Accepted

Investment 1            $2,906,296          $1,644,166                  $0           $1,644,166
Investment 2             4,812,500           1,635,732                   0            1,635,732
Investment 3             6,133,644           1,587,238             241,653(a)         1,345,585
Investment 4             8,689,113           7,973,894                   0            7,973,894
Investment 5             5,208,516           1,375,172                   0            1,375,172
Investment 6            10,342,748                   0                   0                    0
Investment 7             4,668,750           2,500,000                   0            2,500,000
Investment 8             7,960,616                   0                   0                    0
Investment 9             1,045,250                   0                   0                    0
M&A Costs                1,500,000             168,735              48,436(b)       _ 120,299
Total                  $53,267,433         $16,884,937            $290,089          $16,594,848


Costs Claimed                                                        $16,884,937(c)
Less: Questioned Costs                                                   290,089
Costs Accepted                                                       $16,594,848

Accepted Costs Not Subject to Match                                 $         -0-(d)
Accepted Costs Subject to Match                 $16,594,848
Federal Share Ratio                                    x 80%          13,275,878
Federal Funds Earned                                                 $13,275,878
Federal Funds Disbursed                                               13,026,459
Excess Disbursements Due the Government                              $        -0-

Interest Due the Government                                          $    15,552

Notes:
   a) Questioned costs include matching costs claimed ($219,638) and management and
       administration costs claimed by a subrecipient ($22,015). Questioned claims total
       $241,653. These costs are not allowable because the matching costs had not yet been
       incurred, and management and administration costs incurred at the subrecipient level are
       ineligible for reimbursement with PSIC funds.

   b) Questioned costs include indirect charges ($37,230), IT equipment ($3,749), and
      expenses ($7,457). Questioned claims total $48,436. These costs are not allowable based

                                           12                                             

U.S. Department of Commerce                                               Final Report DEN-19886 

Office of Inspector General                                                     September 24, 2010



       on direction provided in NTIA’s PSIC Program Guidance and Application Kit, PSIC
       Grant Program Allowable Cost Matrix, and PSIC Grant Program Frequently Asked
       Questions.

   c) FDEM reported total outlays of $16,884,937 on its December 31, 2009, financial status
      report.

   d)	 As of December 31, 2009, there are no accepted costs that are not subject to the matching
       share requirement.




                                          13                                             

U.S. Department of Commerce                                    Final Report DEN-19886 

Office of Inspector General                                          September 24, 2010



                              Appendix D: Recipient Response




                                         14                                   

U.S. Department of Commerce        Final Report DEN-19886 

Office of Inspector General              September 24, 2010





                              15                  

U.S. Department of Commerce        Final Report DEN-19886 

Office of Inspector General              September 24, 2010





                              16                  

